CERTIFICATE OF COMPLIANCE

The Petitioner hereby certifies that the accompanying Writ of Certiorari
petition in Shean v. Florida, Case #20-.

., is following Supreme Court

Rules 33(g) and 33(h) as it contains 8,999 words, 32 pages, 144 paragraphs and 715
lines which includes textboxes, footnotes, and endnotes as per Microsoft Word 365.
Petition is also in compliance with Rule 33 regarding: is double spaced, 1”
margins, and Century Schoolbook is the font in 12 points, with 10 point as
footnotes.

CERTIFICATE OF SERVICE
Petitioner hereby certifies that she will serve respondents via US first class
mail to the last known address.

Respectfully submitted,
Dora Renee Shean
Pro se Petitioner
1752 SW Old Wire Road
Lake City, FL 32024
mrsdshean@yahoo.com
(904) 505-4700

This June 30, 2021

Received
JUL -6 2021

1
l

